j •

-A"

EXHTBTT A

-4

No. 21-1201
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

DAVID ANGEL SIFUENTES,
Petitioner-Appellant,
v.

JOHN PRELESNIK, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

FILED

Jul 12, 2021
DEBORAH S. HUNT, Clerk
ORDER

Before: NALBANDIAN, Circuit Judge.
Pro se litigant David Angel Sifuentes, a former Michigan prisoner, applies for a certificate
of appealability (“CO A”) in his appeal from the district court’s denial of his post-judgment motion
in his habeas proceeding under 28 U.S.C. § 2254. See 28 U.S.C. § 2253(c)(1)(A). Sifuentes also
moves to proceed in forma pauperis and to submit supplemental briefing!
In 2000, a Michigan jury convicted Sifuentes of two offenses: third-degree criminal sexual
conduct involving the use of force; and furnishing alcohol to a minor. The trial court sentenced
him to five to fifteen years of imprisonment on the criminal-sexual-conduct conviction and thirtyone days on the furnishing-alcohol conviction. His direct appeal was unsuccessful. People v.
Sifuentes, No. 232286, 2002 WL 31474446 (Mich. Ct. App. Nov. 5, 2002) (per curiam), perm,
app. denied, 662 N.W.2d 755 (Mich. 2003).
Sifuentes then filed a § 2254 petition, which the district court denied, Sifuentes v. Prelesnik,
No. L03-CV-637, 2006 WL 2347529 (W.D. Mich. Aug. 11, 2006), and this court affirmed that
decision. In 2011, this court also denied his motion for authorization to file a second or successive
§ 2254 petition. In 2019 and 2020, Sifuentes filed multiple post-judgment motions in his § 2254
case, all of them without success. In dismissing Sifuentes’s latest motion for authorization to file
a second or successive petition, this court warned him that “future duplicative or frivolous filings
in this case may result in sanctions.” In re Sifuentes, No. 20-2212 (6th Cir. June 7,2021) (order).

'sJi

No. 21-1201
-2The district court has noted that Sifuentes was released on parole in 2009 and has since been
discharged from parole.
In December 2020, Sifuentes moved to reopen his § 2254 petition under Federal Rule of
Civil Procedure 60(b). He sought to raise claims that he has presented before, alleging that: (1)
the prosecutor committed misconduct during closing arguments; and (2) his trial and appellate
counsel were ineffective for failing to object to or raise a claim about the misconduct.
The district court—after recounting Sifuentes’s repetitive motion practice in his habeas
case, which included eight motions for reconsideration in the last two years—held that his
Rule 60(b) motion was untimely. But the district court also held that his motion was duplicative
of several of his previous filings, finding that there was “no meaningful difference between” his
current motion and an amended petition that he filed a month before. Therefore, the district court
denied Sifuentes’s motion “as tardy, duplicative, and frivolous” and ordered the Clerk to “reject
any further filings by [Sifuentes] in this case.”
Sifuentes filed a notice of appeal in which he sought to appeal not only the district court’s
denial of his Rule 60(b) motion but also a prior order. This court dismissed his appeal to the extent
it concerned that prior order, because his appeal of that order was untimely.

In his COA

application, Sifuentes seeks a COA on each of his claims and argues that he is not engaging in
abusive litigation tactics. In his supplemental brief, he argues that the district court erred by barring
him from filing documents in his habeas case.
“[T]his court will not entertain an appeal from the denial of a Rule 60(b) motion in a
[§ 2254] proceeding unless the petitioner first obtains a COA.” Johnson v. Bell, 605 F.3d 333,339
(6th Cir. 2010). A court may issue a COA “only if the applicant has made a substantial showing
of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). “That standard is met when
‘reasonable jurists could debate whether (or, for that matter, agree that) the petition should have
been resolved in a different manner,”’ Welch v. United States, 136 S. Ct. 1257, 1263 (2016)
(quoting Slack v. McDaniel, 529 U.S. 473,484 (2000)).
Under Rule 60(b)(1) and (2), and (3), a movant may receive relief from judgment based on
mistake, inadvertence, surprise, or excusable neglect; or newly discovered evidence. But a motion
under those subsections must be filed within one year after the entry of judgment, Fed. R. Civ.

No. 21-1201
-3P. 60(c)(1); Hill v. Mitchell, 842 F.3d 910,921-22 (6th Cir. 2016), and Sifuentes’s motion was not,
so he could not succeed under any of those provisions.
Rule 60(b)(4) and (5) provide relief if the judgment is void; it has been satisfied, released,
or discharged; it is based on an earlier judgment that has been reversed or vacated, or applying it
prospectively is no longer equitable. Subsection (6) is the catch-all provision, which permits courts
to grant a motion for “any other reason that justifies relief.” Fed. R. Civ. P. 60(b)(6). Motions
under those provisions “must be made within a reasonable time.” Fed. R. Civ. P. 60(c)(1). The
reasonableness analysis “is a fact-specific determination,” in which the court considers

a

petitioner’s diligence in seeking relief.” Miller v. Mays, 879 F.3d 691, 699 (6th Cir. 2018). The
“moving party must articulate a reasonable basis for delay.” Tyler v. Anderson, 749 F.3d 499,510
(6th Cir. 2014).
Sifuentes’s motion came almost fifteen years after the judgment in his habeas case, and the
district court noted that it was “unable to locate any authority even suggesting that such a delay
would be ‘within a reasonable time’ under the circumstances.” In his COA application, Sifuentes
asserts that he “was pursuing all of his federal claims with due diligence in both federal and in
state court from 2009-2020.” Yet, as indicated above, Sifuentes has been filing post-judgment
motions in his § 2254 proceedings for years, and the claims that he raised in this particular motion
involved matters that were readily knowable to him at the time of his trial or direct appeal.
Sifuentes also argues that he tried to raise the claim in 2006 or 2007 in a motion to remand and
therefore that his current motion should be deemed to relate back. But, to the extent that Sifuentes
in fact presented these claims there, the district court denied that motion, and Sifuentes offers no
compelling argument why he should be permitted to raise his claims again nearly fifteen years
later.
That consideration also goes to the district court’s other rationale for denying Sifuentes’s
motion: it is duplicative. The district court noted that Sifuentes had filed a post-judgment motion
in his habeas case one month before this one, and that he filed this one merely a week after the
court had transferred his prior motion to this court as second or successive. The two motions, the
district court observed, have “no meaningful difference.” The court therefore denied the motion

No. 21-1201
-4-

as frivolous and duplicative, in addition to being untimely. No reasonable jurist could debate that
decision.
The ffivolousness of Sifuentes’s motion, together with his filing history in his § 2254 case,
also prompted the district court to impose a filing restriction directing the Clerk not to accept any
future filings from Sifuentes in his habeas case. A district court has inherent authority to control
vexatious litigants. See Feathers v. Chevron U.S.A., Inc., 141 F.3d 264, 269 (6th Cir. 1998).
Because Sifuentes has continued to press the same claims over and again despite both this court’s
and the district court’s repeated rejection of them, no reasonable jurist could debate that the district
court’s filing restriction is not an abuse of discretion. See id.
Accordingly, Sifuentes’s motion to file a supplemental brief is GRANTED, his COA
application is DENIED, and his motion to proceed in forma pauperis is DENIED as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

No. 21-1201

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
DAVID ANGEL SIFUENTES,

)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
JOHN PRELESNIK, WARDEN,
Respondent-Appellee.

Aug 04, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: BATCHELDER, GIBBONS, and DONALD, Circuit Judges.
David Angel Sifuentes, a pro se former Michigan prisoner, petitions the court to rehear en
banc its order denying him a certificate of appealability. The petition has been referred to this
panel, on which the original deciding judge does not sit, for an initial determination on the merits
of the petition for rehearing. Upon careful consideration, the panel concludes that the original
deciding judge did not misapprehend or overlook any point of law or fact in issuing the order and,
accordingly, declines to rehear the matter. Fed. R. App. P. 40(a).
The Clerk shall now refer the matter to all of the active members of the court for further
proceedings on the suggestion for en banc rehearing.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

0

Case: 21-1201

Document: 24-1

Filed: 08/19/2021

FILED

No. 21-1201
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

DAVID ANGEL SIFUENTES,
Petitioner-Appellant,
v.
JOHN PRELESNIK, WARDEN,
Respondent-Appellee.

(1 of 2)

Page: 1

)
)
)
)
)
)
)
)
)

Aug 19, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: BATCHELDER, GIBBONS, and DONALD, Circuit Judges.

David Angel Sifuentes, petitions for rehearing en banc of this court’s order entered on +
July 12, 2021, denying his application for a certificate of appealability. The petition was initially
referred to this panel, on which the original deciding judge does not sit. After review of the petition,
this panel issued an order announcing its conclusion that the original application was properly
denied. The petition was then circulated to all active members of the court, none of whom
requested a vote on the suggestion for an en banc rehearing. Pursuant to established court
procedures, the panel now denies the petition for rehearing en banc.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

